OIG Audit Report GR-30-03-003

Office of Community Oriented Policing Services Grantsto the District of Columbia Housing Authority Police Department
Washington, DC

Report No. GR-30-03-003


April 2003
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division, has completed an audit of the grant awarded by the Office of Community Oriented Policing Services (COPS) to the District of Columbia Housing Authority (DCHA). The purpose of the grant is to enhance community policing. The DCHA was awarded a total of $1,691,895 to hire 15 new police officers. In May 1997 DCHA and the District of Columbia Metropolitan Police Department (MPD) entered into a Memorandum of Understanding to authorize the MPD to provide 15 sworn MPD officers to work on the DCHA Hiring grant for a 3-year period, for a cost of $1,691,895.
The DCHA failed to comply with one of the five grant requirements that we tested. We found a weakness in its record keeping procedures used for the DCHA's hiring of officers. DCHA officials indicated that they reimbursed the MPD the entire $1,691,895 grant amount. However, DCHA officials provided us with copies of the checks sent to MPD, which supported only $1,682,309 of expenditures, or $9,586 less than the amount the DCHA drew down. As a result, we are reporting $9,586 in dollar-related findings. We question $9,586 because DCHA had unsupported grant drawdowns.1
This item is discussed in detail in the Findings and Recommendation section of the report. Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use. However, not all findings are dollar-related.  findings and for definitions of See Appendix III for a breakdown of our dollar-related questioned costs and funds to better use.